<html>
<title> - THE PRESIDENT ' S PLAN FOR AIDS RELIEF: IS IT FULFILLING THE NUTRITION AND FOOD SECURITY NEEDS OF PEOPLE LIVING WITH HIV/AIDS? HEARING BEFORE THE SUBCOMMITTEE ON AFRICA AND GLOBAL HEALTH OF THE COMMITTEE ON FOREIGN AFFAIRS HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS FIRST SESSION OCTOBER 9, 2007 Serial No. 110-112 Printed for the use of the Committee on Foreign Affairs</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                        THE PRFSIDENT'S PLAN FOR AIDS RELIEF: 
                       IS IT RJLFILLING THE NUTRITION AND FOOD 
                         SECURITY NEEDS OF PEOPLE LIVING WITH 


                                    HIV/AIDS? 


                                    HEARING 


                                   BEFORE THE 

                      SUBCOMMITTEE ON AFRICA AND GLOBAL HEALTH 

                                      OF THE 

                           COMMITTEE ON FOREIGN AFFAIRS 

                            HOUSE OF REPRESENTATIVES 


                          ONE HUNDRED TENTH CONGRESS 

                                FIRST SESSION 

                               OCTOBER 9, 2007 

                            Serial No. 110-112 

          Printed for the use of the Committee on Foreign Affairs 


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 

                        U.S. GOVERNMENT PRINTING OFFICE 
38-187PDF                      WASHINGTON : 2007 

  For sale by the Superintendent of Documents, U.S. Government Printing 
                Office Internet: bookstore.gpo.gov Phone: toll free 
                    (866) 512-1800; DC area (202) 512-1800 
         Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001 


[TEXT NOT AVAILABLE REFER TO PDF]



</pre></body></html>
